No. ________________

In the Supreme Court of the United States

RANDY DOMINGUEZ, PETITIONER,
V.

UNITED STATES OF AMERICA, RESPONDENT
PETITION FOR WRIT OF CERTIORARI
TO THE
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

Petitioner Randy Dominguez, by and through his undersigned attorney,
and pursuant to Rule 39.1, Supreme Court Rules, and Title 18, United States
Code, § 3006A(d)(7), respectfully moves this Honorable Court for leave to proceed in forma pauperis, and for leave to file the attached Petition for Writ of
Certiorari to the United States Court of Appeals for the Fifth Circuit without
prepayment of fees. Petitioner was represented by retained counsel in the district court but moved to proceed in forma pauperis on appeal. After the district
court denied Petitioner’s motion, the Fifth Circuit appointed the Federal Public
Defender for the limited purpose of assisting Petitioner in obtaining in forma
pauperis status on appeal. This petition concerns that issue. A copy of the
court’s order is reproduced at Pet. App. 3a–4a.

Respectfully submitted.

s/ Bradford W. Bogan
BRADFORD W. BOGAN
Assistant Federal Public Defender
Western District of Texas
727 E. César E. Chávez Blvd., B-207
San Antonio, Texas 78206-1205
(210) 472-6700
(210) 472-4454 (Fax)
Counsel of Record for Petitioner

DATED: December 7, 2020

